                                                    ~ SECU
                                                  :)Ci
                                                    ~
                                                  W/'US~~
                                                  \~ 11\1111
                                                         ~~
                                                    qlS~

                                       SOCIAL        SECURITY

                                       Office of the Inspector General
MEMORANDUM
Date: AUG. 2 1 ;2(}J1-                                                      Refer To:   31233-23-204

To:    Lar~     G. Mas~anari
       Acting    Commissioner
        of Social    Security


       Inspector General


       Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)


       The attached final report presents the results of our evaluation. Our objectives were to
       determine the extent of duplicate fees paid to attorneys and to assess the Social
       Security Administration's screening process at the Office of Hearings and Appeals level
       for claimant representatives.

       Please comment within 60 days from the date of this memorandum on corrective action
       taken or planned on each recommendation. If you wish to discuss the final report,
       please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
       General for Aud it, at (41 0) 965-9700.



                                                                l]/tIJMcA--
                                                       James G. Huse, Jr.

        Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     APPROVAL OF CLAIMANT
     REPRESENTATIVES AND
    FEES PAID TO ATTORNEYS


   August 2001   A-12-00-10027



EVALUATION REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                  Executive Summary
OBJECTIVE
Our objectives were to determine the extent of duplicate fees paid to attorneys and to
assess the Social Security Administration’s (SSA) screening process at the Office of
Hearings and Appeals (OHA) level for claimant representatives.

BACKGROUND
State Disability Determination Services make disability determinations under the
Disability Insurance (DI) and Supplemental Security Income programs. Claimants may
appeal the determinations to Administrative Law Judges (ALJ) located at Hearing
Offices (HO) throughout the nation. The ALJ has the responsibility of ensuring the fair
application of SSA laws and regulations by issuing de novo decisions on appealed
disability determinations for which claimants have a right to a hearing. OHA administers
the hearings and appeals program for SSA.

At all administrative levels, a claimant may designate an attorney or other qualified
individual to represent him or her at a hearing with SSA. Claimant representatives may
charge and receive a fee for their services. The fee must be approved by SSA. If the
representative is an attorney and the claimant is entitled to past-due DI benefits, SSA
will withhold up to 25 percent of the past-due benefits and pay the attorney all or part of
the fee authorized. If the representative is not an attorney, SSA assumes no
responsibility for payment of the fee. Eight Processing Centers (PC) issue attorney fee
payments. In Calendar Year (CY) 2000, the PCs processed over $510 million in
attorney fee payments. However, six of the eight PCs do not track duplicate attorney
fee payments—only PC 7 and PC 8 at the Office of Central Operations (OCO) track
these payments. OCO is a component that consists of PC 7 and PC 8. PC 8 does
prepare attorney fee payments, however, these payments are keyed in PC 7. In
CY 2000, PC 7 processed 153,749 attorney fee payments totaling over $357 million.

SSA has established standards of conduct and responsibility for a person serving as a
claimant representative before the Agency. Among other duties, OHA’s Special
Counsel Staff (SCS) serves as agency representatives when addressing conduct
referrals of claimant representatives. SCS investigates potential violations of the laws
and regulations governing the conduct of claimant representatives in SSA proceedings.
When evidence exists that a representative fails to meet SSA’s qualification
requirements or has violated SSA’s rules, SCS may begin proceedings to suspend or
disqualify that individual from acting as a representative. About once a year, SCS
sends an updated list of disqualified/suspended representatives to SSA Senior and
Executive staffs; the Offices of the 10 Regional Chief Administrative Law Judges; all
regional attorneys; all Administrative Appeal Judges; all Appeals Officers; all Branch



Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)               i
Chiefs in the Office of Appellate Operations; all hearing offices; the Regional
Commissioners; and others with a need to know. The list is also redistributed to SSA
district offices.

RESULTS OF REVIEW
Even though PC 7 implemented a new system in 1997 to prevent duplicate payments to
attorneys, PC 7 made 12 duplicate payments totaling $23,558 in January 1999 and
15 duplicate payments totaling $30,850 in March 2000. Further, we could not assess
whether SSA made duplicate payments at six of eight PCs since these PCs do not track
duplicate attorney fee payments. In addition, we believe the claimant representative
screening process needs to be improved.

ATTORNEY FEE PAYMENT PROCESS

Six of the eight PCs do not track duplicate attorney fee payments. SSA estimates that
these 6 PCs process 30 percent of the attorney fee payments. PC 7 does track
duplicate attorney fee payments, and, therefore, this was the only attorney fee payment
process we were able to review. However, PC 7 uses the claimant’s Social Security
number (SSN) for tracking attorney fee payments and not the attorney’s SSN. Since
PC 7 does not track attorney fee payments using the attorney’s SSN, SSA is unable to
determine the amount of fees a specific attorney has been paid during the year, nor
does SSA prepare IRS Form 1099 for attorneys.

SSA uses an error-prone, labor-intensive system called One-Check Only A- (OCO A) to
process attorney fee payments. In 1997, SSA installed an automated Duplicate
Payment Prevention System (DPPS) at PC 7 to catch possible duplicate attorney fee
payments. Our analysis revealed that DPPS is generally working as intended.
However, we examined attorney fee payment reports for January 1999 and March 2000
and discovered the following:

•	 Benefit authorizers (BA) did not always follow procedures when using the override
   indicator, causing duplicate payments to occur. The override indicator is placed on
   the attorney fee payment form and allows an attorney fee payment to bypass DPPS.
   As a result, 12 duplicate payments totaling $23,558 were made to attorneys in
   January 1999 and 15 duplicate payments totaling $30,850 were made in
   March 2000.

•	 Claimant records in the Payment History Update System (PHUS) were erroneous
   because SSA used incorrect SSNs when the payments were posted to the PHUS.
   An incorrect SSN is a valid SSN belonging to an individual other than the claimant
   who used the attorney’s services. We determined that there are two causes why
   incorrect SSNs are used. Either the BAs entered the incorrect SSN onto the
   payment authorization forms or keyers in the Data Input Unit (DIU) entered the
   incorrect SSN into the OCO A system. Thirty-four records in PHUS were incorrectly



Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)           ii
   credited with attorney fee payments in January 1999 and 30 were incorrectly
   credited in March 2000 totaling $64,991 and $67,689, respectively. The likelihood of
   duplicate payments increases when an attorney fee payment is processed with an
   incorrect SSN. For example, an attorney may receive a payment processed with an
   incorrect SSN and later receive a duplicate payment processed with the correct
   SSN.

•	 There are no system controls to prevent OCO A from processing invalid SSNs for
   attorney fee payments. An invalid SSN is one that has not been issued by SSA.
   Ten attorney fee payments were made using invalid SSNs in January 1999 and
   11 were made in March 2000.

We worked closely with Integrity and Security Branch (ISB) staff at OCO during this
evaluation. As of June 2001, ISB staff had recovered $40,838 in duplicate payments
and are in the process of collecting others that we identified. ISB has also corrected the
PHUS records.

SCREENING OF DISQUALIFIED/SUSPENDED CLAIMANT REPRESENTATIVES

Based on attorney fee payments made at PC 7 from January 1999 through March 2000,
we determined that no disqualified or suspended representatives were representing
claimants. However, we believe the claimant representative screening process needs
to be improved. Twenty-four percent of the 139 HOs told us that they do not receive the
claimant representative disqualification/suspension list. In addition, 32 percent of the
HOs that received the list reported that they did not receive instructions on what to do
with the list, once received.

CONCLUSIONS AND RECOMMENDATIONS
In 1997, PC 7 improved its controls over attorney fee payments by implementing DPPS.
However, PC 7 continues to make duplicate payments to attorneys representing
claimants. Further, SSA does not track duplicate attorney fee payments at six of
eight PCs. SSA estimates that these 6 PCs process 30 percent of all attorney fee
payments. While PC 7 does track duplicate attorney fee payments, they use the
claimant’s SSN for tracking purposes and process these payments through an
inefficient and error-prone OCO A system.

During our evaluation, we reviewed attorney fee payments made in January 1999 and
March 2000. Our review found duplicate attorney fee payments during both of these
months. Since SSA did not improve its controls over the attorney fee payment process
since our evaluation began, we believe that similar errors have occurred in the
intervening months and are still occurring. Based on the results of our review of
January 1999 and March 2000 payments, and using a non-statistical weighted average
process, we estimate PC 7 paid $510,000 in duplicate payments to attorneys during
CYs 1999 and 2000.


Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)          iii
We recommend that SSA:

•   Establish an automated system to account for attorney fee payments at all PCs;

•	 Collect each attorney’s SSN, name and address information so IRS Form 1099 can
   be issued to attorneys;

•	 Develop procedures for other recovery options when SCS is unable to collect
   duplicate payments to attorneys, such as offsetting future payments to attorneys or
   referring these debts to the Treasury Offset Program;

•	 Identify and recover duplicate attorney fee payments made since January 1999 due
   to incorrect use of the override indicator by BAs;

•	 Establish a procedure for reviewing the override indicator reports as they are
   generated;

•	 Correct PHUS records for all accounts where incorrect and invalid SSNs were
   processed to make attorney fee payments since January 1999;

•	 Develop a system edit in the OCO A system so that invalid beneficiary SSNs cannot
   be processed for attorney fee payments;

•   Remind BAs of correct procedures when using the override indicator;

•	 Establish quality control measures for keyers in DIU to prevent input errors of SSNs
   into the OCO A;

•	 Set a priority for automating the OCO A system, so that attorney fee payments can
   be validated against the Master Beneficiary Record; and

•	 Issue instructions for screening disqualified or suspended claimant representatives
   and place the disqualification/suspension list on SSA’s intranet, so that every SSA
   office that needs to identify attorneys will have instant access to screening
   procedures and an up-to-date list.

AGENCY COMMENTS
SSA agreed with nine of our recommendations, but did not concur with our seventh and
tenth recommendations—addressing modifications and automate of the OCO A system.
SSA plans to install a new Single Payment System in 2002 to process attorney fee
payments. As a result, SSA does not want to shift resources from this new system to
improve the OCO A system since it will be replaced soon. (See Appendix F for SSA’s
comments.)


Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)           iv
OIG RESPONSE
Once SSA completes the corrective actions described in its response, staff should have
quality controls to reduce the number of duplicate attorney fee payments being issued
and to prevent disqualified/suspended claimant representatives from participating in the
process. However, we believe that duplicate payments will continue until the OCO A
system is improved or replaced. Further, we believe that SSA will have a difficult time
meeting its goal of implementing a new Single Payment System by 2002, since there
are challenging technical difficulties in automating such a large, complicated system.




Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)        v
                                                                    Table of Contents

                                                                                                              Page


INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 9

    ATTORNEY FEE PAYMENT PROCESS .......................................................... 9

    •    Duplicate Payments................................................................................... 10

    •    Incorrect and Invalid SSNs ........................................................................ 11

    SCREENING OF DISQUALIFIED/SUSPENDED CLAIMANT
    REPRESENTATIVES ..................................................................................... 11

CONCLUSIONS AND RECOMMENDATIONS .................................................... 13

OTHER MATTERS............................................................................................... 15

APPENDICES

APPENDIX A – One-Check Only A- Process at Office of Central Operations

APPENDIX B – Duplicate Payment Prevention System

APPENDIX C – Methodology for Determining Duplicate Attorney Fee Payments

APPENDIX D – Offices and Personnel Sent the List of Disqualified/Suspended
             Representatives

APPENDIX E – Office of the Inspector General Survey Instrument

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgements




Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)
                                                                           Acronyms

ALJ            Administrative Law Judge


BA             Benefit Authorizer


CY             Calendar Year


DI             Disability Insurance


DIU            Data Input Unit


DPPS           Duplicate Payment Prevention System


HO             Hearing Office


ISB            Integrity and Security Branch


MBR            Master Beneficiary Record


OCO            Office of Central Operations


OCO A          One-Check Only A-


OHA            Office of Hearings and Appeals


OIG            Office of the Inspector General


OIO            Office of International Operations


PAS            Payment Accounting Section


PC             Processing Center


PHUS           Payment History Update System


SCS            Special Counsel Staff


SSA            Social Security Administration


SSI            Supplemental Security Income


SSN            Social Security number


TA             Technical Assistant



Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)
                                                                         Introduction

OBJECTIVE
Our objectives were to determine the extent of duplicate fees paid to attorneys and to
assess the Social Security Administration’s (SSA) screening process at the Office of
Hearings and Appeals (OHA) level for claimant representatives.

BACKGROUND
State Disability Determination Services make disability determinations under the
Disability Insurance (DI) and Supplemental Security Income (SSI) programs. Claimants
may appeal the determinations to Administrative Law Judges (ALJ) located at Hearing
Offices (HO) throughout the nation. The ALJ has the responsibility of ensuring the fair
application of SSA laws and regulations by issuing de novo decisions on appealed
disability determinations for which claimants have a right to a hearing. OHA administers
the hearings and appeals program for SSA.

At all administrative levels, a claimant may designate an attorney or other qualified
individual to represent him or her at a hearing with SSA. The claimant must sign a
written notice of appointment and file the notice with SSA. The notice constitutes proof
of appointment. Without evidence to the contrary, SSA presumes that an appointed
representative is of good character and reputation, and capable of providing assistance
to the claimant.1

In Fiscal Year 2000, about 75 percent of disability claims had attorney representation.2
Claimant representatives may charge and receive a fee for their services. The fee must
be approved by SSA. If the representative is an attorney and the claimant is entitled to
past-due DI benefits, SSA will withhold up to 25 percent of the past-due benefits and
pay the attorney all or part of the fee authorized. If the representative is not an attorney,
SSA assumes no responsibility for payment of the fee. The amount of attorney fee
payments paid by SSA since 1995 is shown in Figure 1.




1
    Representation of Parties – 20 C.F.R. §§ 404.1700 through 404.1799 and 416.1500 through 416.1599.
2
    SSA’s Office of Information Management data derived from OHA’s case control system.


Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)                         1
           Figure 1

                                                   Attorney Fee Payments

                                    600
             Payments in Millions




                                    500



                                    400



                                    300
                                          1995   1996   1997    1998    1999   2000
                                                        Calendar Year

           Source: Payment History Update System (PHUS)


THE OFFICE OF CENTRAL OPERATIONS PROCESSES 70 PERCENT OF ALL
ATTORNEY FEE PAYMENTS

Attorney fee payments are processed by SSA’s Processing Centers (PC). There are
eight PCs located in different regions throughout the U.S., including the Office of Central
Operations (OCO) 3 in Baltimore, Maryland. PC 7 processes payments for claimants
who are under 55 years of age, PC 8 processes international attorney fee payments,
and the other six PCs process payments for claimants who are aged 55 and older.

In CY 1991, PC 7 processed 71,600 attorney fee payments totaling $140 million. The
numbers have grown dramatically since 1991. In CY 2000, PC 7 processed
153,749 attorney fee payments totaling over $357 million. This represents a
115 percent increase in the number of payments and a 155 percent increase in the
amount of payments.

Figure 2 illustrates SSA's estimate of the percentage of attorney fee payments
processed by each PC.4



3
  OCO is a component that consists of two PCs, the Office of Disability Operations (ODO or PC 7) and
the Office of International Operations (OIO or PC 8). PC 8 does prepare fee payments for attorneys;
however, these payments are keyed in PC 7 by the same data entry clerks who key the ODO payments.
4
  Percentages are based on SSA estimates of attorney fee payments processed by each processing
center.


Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)                        2
           Figure 2

              Percentage of Attorney Fee Payments                   Northeastern
                    by PC for CY 1999                               PC 1

                                     4%                             Mid-Atlantic
                                            5%
                                                                    PC 2
                                                   9%
                                                                    Southeastern
                                                                    PC 3
                                                        3%
                                                                    Great Lakes
                                                         4%         PC 4

                                                                    Western
                                                         5%         PC 5

                                                                    Mid-America
                                                                    PC 6

                                                                    OCO and OIO
                70%                                                 PC 7 & PC 8




THE ONE-CHECK ONLY A- PROCESS AT PC 7

In the mid-1990s, attorneys began filing lawsuits against SSA because of extremely
long delays in receiving their payments for representing claimants at hearings. Due to
this significant litigation risk, SSA assembled a team in 1997 to examine the cause of
delays in processing attorney fee payments. The team’s report discussed systems
improvements and concluded that automation of the attorney fee process would greatly
enhance the processing of attorney fees and streamline a fairly complex process.5 The
team recommended that SSA strictly maintain its schedule for automating the attorney
fee payment process. However, competing automation priorities have repeatedly
delayed automation of the attorney fee payment process.

At PC 7, the attorney fee payment system, called the One-Check Only A- (OCO A)
system, requires extensive human resources (see Appendix A). The manual process
begins when a benefit authorizer (BA) calculates the amount of the attorney fee. The
BA verifies previous payments made to the attorney using the Master Beneficiary
Record (MBR) and PHUS. The MBR contains special messages for items relating to
the attorney fee. A historical record of payments made to a claimant's account is


5
  SSA Attorney Fee Processing Team Report, December 16, 1997. The team was composed of staff
from OHA, OCO, Office of Systems, Office of the General Counsel, and the Litigation Staff.


Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)                3
archived in PHUS. The system tracks payments made to a claimant's account and
generates IRS Form 1099 for claimants. PHUS uses the claimant's Social Security
number (SSN) and a code to identify attorney fee payments.

If the BA determines that no attorney fee payment was previously made, or that an
additional payment will not exceed mandated limits, the BA prepares a Form 2795. This
Form contains the beneficiary's SSN, the attorney's name and address, the payment
amount, and signatures of approving officials. The forms are collected by personnel in
the modules and then carried to the Payment Accounting Section (PAS). Technical
Assistants (TA) in the PAS review every form for accuracy, completeness, and proper
signatures. The forms are returned to the BA if any discrepancies are found. The TAs
batch the forms into groups of 20 and use an adding machine to total the amount of
payments per batch. The adding machine tape is stapled to the top form of the batch
and is used as an audit check. The batched forms are then carried to the Data Input
Unit (DIU). Keyers in DIU access the Falcon6 system and enter payment information
into the OCO A application program. After the keying operation, the forms are returned
to PAS for archiving. The payment information is then processed electronically through
the Duplicate Payment Prevention System (DPPS).

DUPLICATE PAYMENTS AT PC 7 WERE IDENTIFIED BY DPPS

In a 1992 Office of the Inspector General (OIG) audit7 of the attorney fee payment
process at PC 7, we recommended that SSA periodically identify and review cases that
contain two or more identical attorney fee payments to determine if duplicate payments
were made. SSA agreed with the recommendation. In 1997, SSA installed DPPS—an
automated system that reviews attorney fee payments before they are issued and flags
payments that match or closely match SSNs to attorney fee payments that were made
in the past (see Appendix B). When a possible duplicate is identified, the attorney fee
payment record is removed from processing and no payment is made.

The OCO A system prints daily, weekly and monthly reports on payments made to
attorneys. A daily report of “no payment made” cases is also generated. When a
payment is flagged as a possible duplicate, a TA in PAS pulls the Form 2795 from the
batch and returns it to the BA who initiated the payment. The BA determines whether
the attorney fee payment is a “true” duplicate. It is a slow and time-consuming process
to verify duplicate payments. The BA must examine PHUS and printed payment
reports. If the BA is able to determine that the attorney fee payment is a “true”
duplicate, the BA must obtain copies of cancelled checks from the Department of
Treasury proving the attorney cashed the duplicate check. After obtaining copies of the
cashed check, PC 7 attempts to collect the duplicate payment from the attorney. If the
6
  The Falcon system is the automated system which SSA uses to record all OCO A payments. Access to
the system is controlled either by an external security package (TOP Secret) or by a single log-on
password system.
7
 SSA/OIG report, “Better Controls are Needed to Help Prevent or Detect Duplicate Payment to
Attorneys,” (A-13-92-000219), September 1992.


Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)                  4
BA is unable to collect the overpayment, the case is sent to Special Counsel Staff
(SCS) for collection and any appropriate administrative action regarding the
representative, which can include suspension and disbarment from the program. In
CY 2000, SCS collected approximately $70,000 in remittances from attorneys. For
those duplicate attorney fees that SCS is unable to collect, SSA does not currently
pursue other recovery options, such as offsetting future payment of fees to attorneys8 or
referring these debts to the Treasury Offset Program.9

AN OVERRIDE INDICATOR ALLOWS SELECTED ATTORNEY FEE PAYMENTS TO
BYPASS DPPS

Not all attorney fee payments flagged by DPPS are “true” duplicates. SSA refers to
these payments as “false” duplicates. There are two main causes of “false” duplicates.
The first is a returned check that has not been cashed due to a wrong attorney address.
If the BA tried to submit another payment to this attorney, the DPPS would flag the
payment because the claimant's SSN matched the previous payment. The second
reason a “false” duplicate payment occurs is when more than one attorney represents a
claimant. If more than one attorney is authorized a payment, multiple checks must be
issued against the claimant's SSN. The DPPS would flag these payments because
more than one check was issued to the same SSN. To get around the problem of
“false” duplicates, the override indicator is used. The override indicator allows a
payment to bypass DPPS. A daily report of attorney fee payments paid using the
override indicator is printed and stored by the Integrity and Security Branch (ISB) at
OCO.

RULES GOVERNING CLAIMANT REPRESENTATION

Effective September 3, 1998, SSA amended the rules governing representation of
claimants seeking DI or SSI benefits under titles II or XVI of the Social Security Act.
These regulations established standards of conduct and responsibilities for
representatives and further defined SSA’s expectations regarding their obligations to
claimants.10 Among other functions, OHA’s SCS serves as the Agency representative
in actions against claimant representatives and investigates potential violations of laws
and regulations by claimant representatives. When evidence exists that a
representative failed to meet SSA’s qualification requirements, or has violated SSA’s
rules, SCS may begin proceedings to suspend or disqualify that individual from acting
as a representative. About once a year, SCS sends an updated list of

8
 Section 204(a)(1)(A) of the Social Security Act, 42 U.S.C. § 404(a)(1)(A), may allow the Commissioner
of Social Security to prescribe regulations relating to decreasing future fees for attorneys who are paid
more than the correct amount.
9
    See Collection of overdue debts by administrative offset, 20 C.F.R. § 422.310.

10
  Rules of Conduct and Standards of Responsibility for Representatives, 20 C.F.R. §§ 404.1740 and
416.1540.


Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)                             5
disqualified/suspended representatives to SSA Senior and Executive staffs; the Offices
of the 10 Regional Chief Administrative Law Judges; all regional attorneys; all
Administrative Appeal Judges; all Appeals Officers; all Branch Chiefs in the Office of
Appellate Operations; all hearing offices; the Regional Commissioners; and others with
a need to know. The list is also redistributed to SSA district offices. If a disqualified or
suspended claimant representative appears at a HO to represent a claimant, the HO is
responsible for identifying that claimant representative as disqualified or suspended.

As of October 2000, there were 78 disqualified and 4 suspended claimant
representatives. After more than 1 year from the date of the disqualification or
suspension, a disqualified or suspended representative may ask the Appeals Council
for permission to serve as a representative again.

SCOPE AND METHODOLOGY
To achieve our objectives, we:

•   Interviewed staff at PC 7 and OHA headquarters.

•   Examined General Series Program Circulars initiated by PC 7.

•	 Reviewed reports on payments made using the override indicator and the
   January 1999 and March 2000 reports, “No Payments Made, Possible Duplicate
   One-Check Only A-” (see Appendix C for our methodology). We selected the
   January 1999 report because it was the earliest data available. We attempted to
   review the January 2000 report on attorney fee payments flagged by DPPS to make
   a comparison with January 1999 results. However, we were unable to perform a
   similar analysis due to an error in the printed report for January 2000. ISB staff is
   examining the cause of the error. We randomly chose the March 2000 report and
   found similar errors to those identified in the January 1999 report.

•   Performed a walk-through of the OCO A payment process at PC 7.

•	 Examined the claimant representative disqualification/suspension list as of
   July 1999 and compared it to the attorney fee payments made by PC 7 from
   January 1999 through March 2000.

•	 Conducted a survey of all 139 HOs to evaluate the screening process for
   disqualified/suspended claimant representatives.

•   Examined data on attorney names, addresses and payments from PC 7.

•	 Reviewed Program Operations Manual System references and SSA laws and
   regulations governing the conduct of representatives in SSA proceedings.



Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)                6
In addition, we followed up on the status of pertinent recommendations contained in the
following reports:

•	 SSA/OIG report, “Better Controls are Needed to Help Prevent or Detect Duplicate
   Payments to Attorneys,” (A-13-92-000219), September 15, 1992.

•     SSA report, “Attorney Fee Processing,” December 16, 1997.

We planned to perform a statistical sample of attorney fee payments paid by PC 7 in
CY 1999 that were processed using the override indicator. We were unable to verify the
accuracy of the automated data on attorney fee payments paid using the override
indicator because the records are not stored electronically.

The following table lists the number and amounts of attorney fee payments processed
at PC 7 for CYs 1999 and 2000 by month. We did not conduct our review to determine
whether the number and amounts of attorney fee payments reported by PC 7 presented
fairly the number and amounts actually expended. Nothing came to our attention to
indicate that the number and amounts of attorney fee payments made by PC 7 were not
those listed in the table.

Table 1: Attorney Fee Payments by Month
                January   February    March    April    May      June     July    August   September   October   November   December



CY 1999

Number          13,845    12,106     13,368   11,081    6,293   11,717   10,605   12,213   13,865      9,065     10,729      6,728

Amounts          $33.4     $28.5      $31.4    $26.2    $14.7    $28.4     $25      $30      $33.4     $22.4      $25.8        $16
(in millions)

CY 2000

Number          17,485    20,932     16,077   10,932   11,950   11,961   12,191   13,745   11,500      9,651      9,918      7,407

Amounts            $42     $51.2      $38.2    $25.7    $27.5    $27.3    $27.5    $31.4     $25.6     $21.8      $22.3      $16.8
(in millions)


To estimate the total number of duplicate payments made to attorneys, we created a
weighted average for CY 1999 using the duplicate attorney fee payments we identified
in January 1999 divided by the total number of attorney fee payments made that month.
We then multiplied that weighted average by the total amount of attorney fee payments
for each month in CY 1999. We summed the totals for each month to get a grand total
for the year. We used the same methodology for CY 2000 using the March 2000
duplicate payments identified.

We conducted our evaluation from March 2000 through January 2001. The entities
reviewed were OCO under the Deputy Commissioner for Operations and OHA under
the Deputy Commissioner for Disability and Income Security Programs. Our review did



Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)                                                  7
not include attorney fee payments made by PCs 1 through 6. We conducted this review
in accordance with the Quality Standards for Inspections issued by the President’s
Council on Integrity and Efficiency.




Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)   8

                                                       Results of Review

We could not assess whether SSA made duplicate payments at six of eight PCs, since
these PCs did not track duplicate attorney fee payments. Even though PC 7
implemented DPPS in 1997 to prevent duplicate payments to attorneys, PC 7 made
duplicate payments to attorneys during January 1999 and March 2000. Based on our
review of attorney fee payments made by PC 7, we found that:

•	 SSA made duplicate payments to attorneys during January 1999 and March 2000
   totaling $23,558 and $30,850, respectively;

•   BAs did not follow procedures when using the DPPS override indicator; and

•   attorney fee payments with invalid or incorrect SSNs were not detected.

In addition, we determined that PC 7 did not pay attorney fees to any disqualified or
suspended individuals during the period covered by our review. However, we believe
the claimant representative screening process needs to be improved.

ATTORNEY FEE PAYMENT PROCESS

Six of the eight PCs do not track duplicate attorney fee payments. SSA estimates that
these six PCs process 30 percent of the attorney fee payments. PC 7 does track
duplicate attorney fee payments. However, the data that PC 7 collects on attorney fee
payments are not standardized, which prevented us from taking a random sample.
There are variations in spelling and the use of titles for attorney names. In one
instance, there were 30 different spellings of the same attorney name. The name
information contains the first and last name of the attorney in the same field, making it
impossible to do a computerized search on just the last name. We also experienced
difficulties in searching the address fields. The address fields are blended in with the
claimant's name. Many addresses also contain numerous variations in their spelling.
Because of the lack of standardization, we were unable to use data base technology to
sort, query or report on the information. SSA does not track attorney fee payments by
the attorney's SSN, but instead uses the claimant's SSN. We believe the process for
tracking attorney payments and the prevention of duplicate payments could be
improved if SSA recorded the attorney’s SSN, name and address information.
Recording such information would also allow SSA to prepare and send each attorney an
IRS Form 1099.

In an attempt to eliminate duplicate payments from being made to attorneys, PC 7
installed DPPS in 1997. However, the Associate Commissioner for Central Operations
acknowledged in a January 2000 memorandum that duplicate payments to attorneys
are still being made at PC 7. In conducting our review, we attempted to uncover the



Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)         9
cause of the duplicate payments, identify the duplicate payments made in the past so
that they could be recovered, and determine what could be done to prevent this from
happening in the future.

We examined attorney fee payment reports that were generated by DPPS during
January 1999 and March 2000. Based on our examination of data from these reports
and our analysis of the PHUS and the MBR, we believe that DPPS is generally working
as intended. However, our analysis revealed the following.

•	 BAs did not follow procedures when using the override indicator, causing duplicate
   payments to occur. The override indicator is placed on the attorney fee payment
   form and allows an attorney fee payment to bypass DPPS. Twelve duplicate
   payments totaling $23,558 were made to attorneys in January 1999 and 15 duplicate
   payments totaling $30,850 were made to attorneys in March 2000.

•	 Claimant records in PHUS were erroneous because SSA used incorrect SSNs when
   the payments were posted. An incorrect SSN is a valid SSN belonging to an
   individual other than the claimant who used the attorney’s services. We determined
   that there are two causes for incorrect SSNs being processed. Either the BAs
   entered the incorrect SSN onto the payment authorization forms or keyers in the
   Data Input Unit (DIU) entered the incorrect SSN into the OCO A system. Thirty-four
   records in PHUS were incorrectly credited with attorney fee payments in January
   1999 and 30 were incorrectly credited in March 2000 totaling $64,991 and $67,689,
   respectively. The likelihood of a duplicate payment increases when an attorney fee
   payment is processed with an incorrect SSN. The attorney receives a payment
   processed with the incorrect SSN and then later could receive a duplicate payment
   processed with the correct SSN.

•	 There are no system controls to prevent OCO A from processing invalid SSNs for
   attorney fee payments. An invalid SSN is one that has not been issued by SSA.
   Ten attorney fee payments were made using invalid SSNs in January 1999 and
   11 were made in March 2000.

Duplicate Payments

BAs did not always follow procedures when using the override indicator. When these
possible duplicate payments were identified by DPPS, the BA who initiated the payment
was supposed to examine the attorney fee payment records to determine whether the
attorney had been paid previously. Instead of examining the payment reports, the BAs
issued another payment using the override indicator. The attorney then received a
duplicate payment. The first payment was made using an incorrect SSN and the
second payment was made using the correct SSN. Based on the results of our review
of January 1999 and March 2000 payments, and using a non-statistical weighted
average process, we estimate PC 7 paid $510,000 in duplicate payments to attorneys
during CYs 1999 and 2000.


Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)        10
Incorrect and Invalid SSNs

Attorney fee payments with invalid or incorrect SSNs are not automatically detected
because OCO A does not validate SSNs against the MBR. SSA has no verification
method to ensure attorney fee payments are correctly associated with the claimant’s
SSN in the MBR. As a result, we had to manually determine why incorrect SSNs were
used to make attorney fee payments. We requested 29 case folders where incorrect
SSNs were used to make attorney fee payments during January 1999. Ten of the case
folders could not be analyzed because six folders did not contain the Form 2795 and
four folders could not be found. For the 19 cases that we were able to analyze, human
error was to blame for the SSNs being input incorrectly into OCO A. In 13 out of
19 cases (68 percent), keyers in the DIU typed incorrect SSNs into the OCO A; and in
6 out of 19 cases (32 percent), BAs entered incorrect SSNs onto the Form 2795. We
also requested the 10 case folders where attorney fee payments were made using
invalid SSNs. We could not determine the reason why these attorney fee payments
were paid using invalid SSNs. Eight of the cases did not contain either the Form 2795
or the OCO A output information. The remaining two case folders could not be found.

We worked closely with PC 7 and ISB during this evaluation. ISB staff are working with
the U.S. Department of Treasury to determine whether the attorneys cashed the
duplicate payments. As of June 2001, ISB staff had recovered $40,838 in duplicate
payments and are in the process of collecting other duplicate payments we identified.
ISB has also corrected the PHUS records.

ISB has printed copies of the “No Payments Made, Possible Duplicate One-Check Only
A-“ reports dating back to January 1999. SSA can use the methodology outlined in
Appendix C to identify duplicate payments that were made using the override indicator
since January 1999. Duplicate payments made using the override indicator prior to
January 1999 cannot be identified, since ISB no longer has those printed reports.

SCREENING OF DISQUALIFIED/SUSPENDED CLAIMANT REPRESENTATIVES

Based on attorney fee payments made by PC 7 between January 1999 and March
2000, we determined that attorney fees were not paid to any disqualified or suspended
representatives. However, we believe the claimant representative screening process
needs to be improved, because not all HOs received the disqualification/suspension list
and some did not get instructions on what to do with the list.

SCS prepares a list of disqualified and suspended claimant representatives and, about
once a year, sends by e-mail an updated list to the offices and personnel listed in
Appendix D. The Privacy Act prevents SSA from disclosing this list to the public. The
results from our survey of the HOs are illustrated in Table 2.




Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)      11
Table 2. Results of HO Survey
                                                             Number of           Total         Percent
             Survey Characteristic                          Respondents         Number         of Total
 HOs responding to the survey                                   139               139            100
 HOs reporting that they did not receive the list               34                139             24
 HOs reporting that they did receive the list but
 did not receive instructions on what to do with                   34             105            32
 the list

The survey questionnaire is shown in Appendix E. We received survey responses from
all 139 HOs.11 From these survey results, we concluded that the current process is not
working as well as it could. Thirty-four HOs stated that they never received the
disqualification/suspension list and 34 HOs reported that they do not know what to do
with the list.12 By placing the list on SSA’s intranet, every HO would have real-time
access to the current list, and access would be limited to SSA employees.




11
     At the time of our survey, there were 139 HOs. As of February 2001, there were 138 HOs.
12
 Section I -1-150G (Processing an Alleged Violation) of the Hearings, Appeals and Litigation Law
Manual sets forth instructions for OHA employees.


Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)                       12
                                                     Conclusions and
                                                     Recommendations
In 1997, SSA improved its controls over attorney fee payments by implementing DPPS
at PC 7. However, PC 7 continues to make duplicate payments to attorneys
representing claimants. Further, SSA does not track duplicate attorney fee payments at
the other PCs. SSA estimates that these PCs process 30 percent of all attorney fee
payments. While PC 7 does track duplicate attorney fee payments, they use the
claimant’s SSN for tracking purposes and process these payments through an
inefficient and error-prone OCO A system.

During our evaluation, we reviewed attorney fee payments made in January 1999 and
March 2000. Our review found duplicate attorney fee payments during both of these
months. Since SSA did not improve its controls over the attorney fee payment process
since our review began, we believe that similar errors have occurred in the intervening
months and are still occurring. Based on the results of our review of January 1999 and
March 2000 payments, and using a non-statistical weighted average process, we
estimate PC 7 paid $510,000 in duplicate payments to attorneys during CYs 1999 and
2000.

We recommend that SSA:

1. Establish an automated system to account for attorney fee payments at all PCs;

2. 	 Collect each attorney’s SSN, name and address information so IRS Form 1099 can
     be issued to attorneys;

3. 	 Develop procedures for other recovery options when SCS is unable to collect
     duplicate payments made to attorneys, such as offsetting future payments to
     attorneys, or referring these debts to the Treasury Offset Program;

4. 	 Identify and recover duplicate attorney fee payments made since January 1999 due
     to incorrect use of the override indicator by BAs;

5. 	 Establish a procedure for reviewing the override indicator reports as they are
     generated;

6. 	 Correct PHUS records for all accounts where incorrect and invalid SSNs were
     processed to make attorney fee payments since January 1999;

7. 	 Develop a system edit in the OCO A system so that invalid beneficiary SSNs cannot
     be processed for attorney fee payments;



Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)       13
8. Remind BAs of correct procedures when using the override indicator;

9. 	 Establish quality control measures for keyers in DIU to prevent input errors of SSNs
     into the OCO A;

10. Set a priority for automating the OCO A system, so that attorney fee payments can
    be validated against the Master Beneficiary Record; and

11. Issue instructions for screening disqualified or suspended claimant representatives
    and place the disqualification/suspension list on SSA’s intranet, so that every SSA
    office that needs to identify attorneys will have instant access to screening
    procedures and an up-to-date list.

AGENCY COMMENTS
SSA agreed with nine of our recommendations, but did not concur with our seventh and
tenth recommendations—addressing modifications and automate of the OCO A system.
SSA plans to install a new Single Payment System in 2002 to process attorney fee
payments. As a result, SSA does not want to shift resources from this new system to
improve the OCO A system since it will be replaced soon.

OIG RESPONSE
Once SSA completes the corrective actions described in its response, staff should have
quality controls to reduce the number of duplicate attorney fee payments being issued
and to prevent disqualified/suspended claimant representatives from participating in the
process. However, we believe that duplicate payments will continue until the OCO A
system is improved or replaced.

We believe that SSA will have a difficult time meeting its goal of implementing a new
Single Payment System by 2002, since there are challenging technical difficulties in
automating such a large, complicated system. In FY 2000, there were over
500,000 attorney fee payments made at 8 PCs located across the country. Automating
the attorney fee payments at one location is difficult, but coordinating the automation at
8 different locations will take time. Over the past 4 years, SSA has planned to automate
the manual, error-prone OCO A system, but other automation priorities have
continuously postponed this endeavor. A SSA task force in 1997 made
recommendations to improve the attorney fee payment process, but SSA did not act on
those recommendations.




Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)           14
                                                                  Other Matters

During the course of our review, a question came to our attention regarding SSA’s legal
responsibility for issuing IRS Form 1099 to attorneys. While this issue was outside the
scope of our review, we believe it should be brought to management’s attention. We
will research this issue further and report our results to SSA separately.




Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)      15
                                              Appendices





Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)
                                                                                                                                                                                                                                                                                                                 Appendix A
One-Check Only A- Process at Office of Central Operations (1)

                                                                                            M anuaP
                                                                                                  l                            rocess                                                                                                                                         E l e c t r o n i cP            rocess

                                                                                   F o r m 2 7 9 5 R e t u r n e d t o M o d u le


                                                                                                                                                                                                                                                                                       D u p lic a teP a y m e n t
                                 M o d u le s                                        P a y m e n tA c c o u n t i n g S e c t i o n                                                                       D a t aI n p u t U n i t                                                     P re v e n tio n S y stem
                                                                                                                                                                      NO

                                                                                                                                                                                                   K e y er: (5 )
                                                    (2 )                            T e c h n ic a l A s s is ta n t : (3 )                            Fo rm
           B e n e fit A u th o riz e r :                         2 7 9 5 fo r m
                                                                                                                                                       E rro r
                                                                 se nt T o
                                                                                                                                                       F ree?                                      K e y s b a tc h e d f o rm s in to                                                    S eeA p p e n d ixB :
                   C hecks                                                          R e v i e w sF o r m 2 7 9 5 f o r                                                                             O n e - C h e c k O n lyA -                                                         F lo w D i a g r a m o f t h e
          M a s t e r B e n e f ic i a r y R e c o r d &                            a c c u r a c y , c o m p le t e n e s s ,a n d                                                                a p p li c a tio n p r o g ra m v i a th e   P a y m en t d a tas en t               D u p lic a te P a y m e n t
                                                                                                                                        YES                                                   to
          P a y m e n t H is t o r y U p d a t e S y s t e m .                      p r o p e ra u t h o r i z a t i o n . ( 4 )                                                         ed        F A L C O N s y s te m .                      e le c tr o n ic a lly t o             P re v e n tio n S y s te m
                                                                                                                                                                                    er
                                                                                                                                                                               iv
                                                                                                                                                                          el
            P r e p a re sF o r m 2 7 9 5 .                                                                                                                          sd
                                                                                    F o rm s 2 7 9 5 a re b a tc h e d in to                                    rm                                 A u d it C h e c k : T o ta l
                                                                                                                                                           fo
                                                                                    g ro u p s o f 2 0 .                                               d                                           p a y m e n t a m o u n t p e r b a tc h
          O     b ta in s s ig n a tu res .                                                                                                       he
                                                                                                                                             tc
                                                                                                                                        Ba                                                         c o m p a re d a g a in s t k e y ed
                                                                                    A u d itC h e c k : P a y m e n t                                                                              p a y m e n ta m o u n t .
                                                                                    a m o u n t o n e ac h f o rm a n d t o tal
                                                                                    p a y m e n t a m o u n tp e r b a t c h a r e                                                                 A u d it T r a i l: B a tc h e d f o r m s
                                                                                    a tta c h e d to th e f ro n t o f th e                                                                        re tu rn e d t o P a y m en t
                                                                                    b a tc h .                                                                                                     A c c o u n tin gS e c tio n fo r
                                                                                                                                                                                                   a rc h iv in g .




        IN D E X

        ( 1 ) P r o c e s s i n g C e n t e r 7 p r o c e s s e s a n a v e r a g e o f 6 0 ,0 0 0 O n e - C h e c k O n ly A -p a y m e n t s e a c h m o n t h .
              O n e - C h e c k O n ly A -P r o c e s s u s e d f o r :
              - - - C la i m a n t B e n e f i t > $ 3 0 ,0 0 0
           - --B a n k R e c la m a tio n s
           - - - A t t o r n e y F e e P a y m e n t s ( 1 3 1 ,6 1 6 a t t o r n e y p a y m e n t s i n C a l e n d a r Y e a r 1 9 9 9 )
           - --G a rn is h m e n ts
           - --T a x L e v ie s

        ( 2 ) 4 8 M o d u le s
          9     2 3 B e n efit A u th o riz e rs

        ( 3 )
 4 T e c h n i c a l A s s i s t a n t s

        ( 4 ) P r o p e r A u t h o r i z a t i o n s :

          P    a y m e n t s > $ 5 , 0 0 0 B e n e f i t A u t h o r i z e rP e e r s i g n a t u r e r e q u i r e d .
          P    a y m e n t s > $ 3 0 , 0 0 0 M a n a g e m e n ts i g n a t u r e r e q u i r e d .
          P    a y m e n t s > $ 5 0 , 0 0 0 In t e r g r i t y B r a n c h p e r s o n n e l s i g n a t u r e r e q u i r e d .

        (5 ) 1 7 k eyers




Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)
                                                                                                                                                               Appendix B
  Duplicate Payment Prevention System
                                          Duplicate Payment Prevention System
                                                                                                                         Division               Report
                                      Payment Accounting Section:                                                                            reviewedby             Modules
                                                                                                                                                Benefit
                                     Pull Form 2795 from batch and                                                                           A uthorizer
                                      return to Benefit Authorizer.                                                   Program Analyst:
                                                                                                                                                                     Benefit Authorizer:
                                                                                            Outputs:
                                                                                                                        File reports.
                                                                                                                                                           Determine if payment is true duplicate.
                                                                               Daily and bi-weekly reports of no
                                                                      Yes              payment made.
                       Computer Analyst:
 Payment input from
                       Performs data base
 One-Check Only A-                                        Payment
ap plication program        match of:
                                                          Flagged?                                                                                                         No
                                                                                            Outputs:                                                            Tr ue               Resubmit
                       ---Beneficiary Social                                                                                                                   Duplicate
                         Security number                                                                                                                                           Form 2795
                                                                      No                                               Integrity Branch                        Payment?
                                                                              Daily, weekly, and monthly reports                                                                       using
                                                                              on One-Check Only A- payments.                                                                    override Indicator.
                                                                                                                   Payment Disability Specialist:
                                                                                Daily report of payments made                                                Yes
                                                                                   using override indicator.
                                                                                                                           File reports.

                                                                                                                   Currently there are no audits
                                                                                                                   performed on payments made
                                                                                                                      using override indicator.
                                    E   lectronic transmission to Department of Treasury.
                                          M aster Beneficiay Record updated through
                                        Manual Adjustment Credit Award Program.
                                         Pa yment History Update System annotated.
                                                                                                                                                           Destroy Form 2795




  Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)
                                                                                      Appendix C
Methodology for Determining Duplicate
Attorney Fee Payments
Steps taken to determine the number and amount of duplicate payments made by the
One-Check Only A- system:

1. 	 Obtained a copy of the January 1999 report, “No Payments Made, Possible
     Duplicate One-Check Only A-.”

2. 	 Manually identified the unique records contained in the report. Reviewed every
     record in the report, and eliminated any duplicates. We identified 1,060 unique
     records that were flagged by the Duplicate Payment Prevention System as possible
     duplicate payments in January 1999.

3. 	 Identified attorney fee payments that were flagged by DPPS as closely matched
     Social Security numbers (SSN) to attorney fee payments that were made in the past.
     The following record was taken from the January 1999 report, “No Payments Made,
     Possible Duplicate One-Check Only A-.” The attorney fee payment in the first row
     was paid using (SSN 088-XX-XXXX) on December 1, 1998. The attorney fee
     payment in the second row using (SSN 085-XX-XXXX)1 was flagged as a possible
     duplicate when it was submitted on January 29, 1999. There were 160 attorney fee
     payments flagged by DPPS in January 1999 as possible duplicates because of
     closely matched SSNs.

                                        Payment
            SSN             Amount      Indicator   Module    Payee Name      Zip          Date
                             Paid         Code                and Address    Code          Paid
      088-XX-XXXX          $1,523         AT         05      Attorney and    11550   December 1, 1998
                                                             claimant info
      085-XX-XXXX          $1,523         AT         J8      Identical       11550   January 29, 1999
                                                             attorney and
                                                             claimant info

4. 	 Determined whether an incorrect or invalid SSN was used when inputting the
     attorney fee payment into OCO A. Checked the Master Beneficiary Record for both
     SSNs to verify which claimant used the attorney. Checked the Payment History
     Update System for both SSNs to verify whether the attorney fee payment was made
     only under the incorrect SSN, or made under both SSNs.



1
    The last six digits are the same.




Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)
                                                                                  Appendix D
Offices and Personnel Sent the List of
Disqualified/Suspended Representatives
Social Security Administration (SSA) Executive Staff


Office of Hearings and Appeals (OHA) Headquarters Executive Staff


All Administrative Appeals Judges, All Adjudication Officers, All Branch Chiefs


The Regional Chief Administrative Law Judge in each of SSA’s 10 regions


All Regional Attorneys in SSA’s 10 regions


All 139 HOs in SSA’s 10 regions


All Regional Commissioners in each of SSA’s 10 regions





Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)
                                                                                  Appendix E
Office of the Inspector General Survey
Instrument

   Your Name
   Title
   Hearing Office
   Phone Number

                                Questions to Determine
                       Claimant Representative Screening Process

   1. Do you receive a list of disqualified, suspended
   or not recognized claimant representatives? If not,
   please stop here.
   2. How often do you receive the list?
   3. How do you receive the list? Email? List placed
   on bulletin board? Other? Please specify!
   4. What is the date on the latest list?
   5. How many disqualified, suspended, or not                   Number of disqualified =
   recognized claimant representatives are on the list           Number of suspended =
   you currently have?
   6. What are you instructed to do with the list of
   disqualified, suspended or not recognized claimant
   representatives?
   7. Are there instructions for screening persons
   appointed by claimants against the disqualified,
   suspended, or not recognized list?
   8. Has your office ever experienced or witnessed a
   disqualified, suspended, or not recognized person
   who has tried to represent a claimant?
   9. If you responded yes to number 8, what did you
   or anyone else do about it?
   10. Do you have any suggestions for how to
   improve the screening process to prevent
   disqualified, suspended, or not recognized persons
   from representing claimants?




Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)
                                                                                  Appendix F

Agency Comments





Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)
¥EMORANDUM


Date:
           August   13,2001                                                      Refer To:   SlJ-3

To:        JamesG. Ruse, Jr.
           Inspector General

From:      Larry G. Massanari   (
           Acting
                                          ~

Subject:   Office of the Inspector General (OIG) Draft Report, "Approval of Claimant Representatives and
           FeesPaid to Attomeys"{A-12-00-10027)-INFORMATION.

           We appreciatethe OIG's efforts in conducting this review. Our comments on the draft report
           and the specific recommendations are attached.

           Pleaselet us know if we may be of further assistance. Staff questionsmay be referred to
           Robert Berzanski on extension 52675.

           Attachment:
           SSA Response
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“APPROVAL OF CLAIMANT REPRESENTATIVES AND FEES PAID TO ATTORNEYS”
(A-12-00-10027)

Thank you for the opportunity to review and provide comments on this draft report.

Before addressing the specific recommendations, we would like to note that we have been
examining the attorney fee process over the last year. Among its activities, the Representative’s
Fee Process Review Workgroup, established in May 2000, reviewed the current level of
automation, data collection and management information. Subsequently, in May 2001, the
Acting Commissioner established an Executive Task Force to oversee the development of a plan
for improvement of the attorney fee payment process and to build on the work of the
Representative's Fee Process Review Workgroup. The Task Force is developing an approach for
improving the attorney fee process that includes improvements in automation.

Following are our comments on the recommendations.

Recommendation 1

Establish an automated system to account for attorney fee payments at all seven Processing
Centers (PCs).

Comment

The Social Security Administration (SSA) will implement a new Single Payment System (SPS)
in 2002 that will:
• Record all attorney fee payments nationwide;
•	 Provide for Customer Information Control System screens to automate the payment
    (eliminating the Data Input Unit participation in paying attorney fees);
•	 Check Master Beneficiary Record (MBR)/Payment History Update System(PHUS)/Critical
    Payment System data bases to ensure that the attorney fee payment is not a duplicate;
•	 Release attorney fee payments only when a MBR has been established with attorney fee
    withholding present;
• Establish a record of who issued the payment; and
• Establish a record of who and why an override was input.

Recommendation 2

Collect each attorney’s Social Security number (SSN), name and address information so IRS
Form 1099 can be issued to attorneys.




Approval of Claimant Representatives and Fees Paid to Attorneys (CIN A-12-10027)              F-2
Comment

SSA's Executive Task Force is addressing the issue of providing IRS Form 1099 to attorneys and
is developing a business process for issuing these forms. A timeline for implementation has not
yet been determined.

Recommendation 3

Develop procedures for other recovery options when the Office of Hearings and Appeals' (OHA)
Special Counsel Staff (SCS) is unable to collect duplicate payments to attorneys, such as
offsetting future payments to attorneys or referring these debts to the Treasury Offset Program.
Comment

We concur. We currently are exploring the availability and use of the various recovery options
and plan to develop procedures using those recovery tools that prove feasible.

Recommendation 4

Identify and recover duplicate attorney fee payments made since January 1999 due to incorrect
use of the override indicator by Benefit Authorizers (BAs).

Comment

We concur. SSA identified the duplicate payments and started the recovery process in August
2000. The completion date depends upon the degree of verification and/or documentation
requested by the recipients of the duplicate payments.

Recommendation 5

Establish a procedure for reviewing the override indicator reports as they are generated.

Comment

We concur. SSA will establish a procedure for reviewing the reports by January 2002.

Recommendation 6

Correct PHUS records for all accounts where incorrect and invalid SSNs were processed to make
attorney fee payments since January 1999.

Comment

We concur. SSA initiated corrective actions on the PHUS records in September 2000.


Approval of Claimant Representatives and Fees Paid to Attorneys (CIN A-12-10027)              F-3
Recommendation 7


Develop a system edit in the One-Check Only A- (OCO A) system so that invalid beneficiary

SSNs cannot be processed for attorney fee payments.


Comment


We do not concur. The SPS described in the response to Recommendation 1 will perform

validation against the beneficiary’s SSN. We do not want to shift resources from the SPS project

to a system that will soon be obsolete.


Recommendation 8


Remind BAs of correct procedures when using the override indicator.


Comment


We concur. SSA will issue a reminder item by August 31, 2001.


Recommendation 9


Establish quality control measures for keyers in the Data Input Unit to prevent input errors of

SSNs into the OCO A.


Comment


We concur. Control measures will be implemented by October 1, 2001.


Recommendation 10


Set a priority for automating the OCO A system, so that attorney fee payments can be validated

against the MBR.


Comment


We do not concur. The SPS will perform validation against the beneficiary’s SSN. We do not

want to shift resources from the SPS project to a system that will soon be obsolete.


Recommendation 11


Issue instructions for screening disqualified or suspended claimant representatives and place the

disqualification/suspension list on SSA’s Intranet, so that every SSA office that needs to identify

attorneys will have instant access to screening procedures and an

up-to-date list.





Approval of Claimant Representatives and Fees Paid to Attorneys (CIN A-12-10027)                   F-4
Comment

We agree and have already implemented this recommendation. HALLEX and POMS, which are
both available through the SSA Intranet, provide extensive instructions on how to proceed if a
claimant representative is identified as suspended or disqualified from representing claimants.

In April 2001, we informed our employees in field and hearing offices that future lists of
currently disqualified or suspended representatives would appear on the SSA Intranet and would
be promptly updated by the SCS as soon as a suspension or disqualification decision became
final. We emphasize that it is not only attorneys that can appear on the disqualified/suspension
list.

On June 18, 2001, we sent a follow up message to our employees identifying the Intranet site
address for the list, making clear that the site is currently operational and identifying the SCS
contact for further questions.

We expect revisions with more detailed instructions for the Intranet site to be available by
September 30, 2001.




Approval of Claimant Representatives and Fees Paid to Attorneys (CIN A-12-10027)                    F-5
                                                                              Appendix G
OIG Contacts and Staff Acknowledgements
OIG Contacts

   Rona Rustigian, Acting Director, Disability Program Audit Division, (617) 565-1819

   Michael Maloney, Deputy Director, (703) 578-8844

Acknowledgements

In addition to those named above:

   Nicholas Milanek, Program Analyst


For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-12-00-10027.




Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
